BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1
unbound copy and 40 bound copies of the foregoing
Brief of Amicus Curiae George K. Young in Support of
Petitioners in 20-843, New York State Rifle & Pistol
Association, Inc., et al. v. Kevin P. Bruen, in His
Official Capacity as Acting Superintendent of New
York State Police, et al. were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day and e-mail service to the following parties
listed below, this 16th day of July, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov
(212) 416-8016

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
. 1300 I Street, NW, Suite 400E
Washington, DC 20005

Alan Alexander Beck
Counsel of Record
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com
Stephen D. Stamboulieh
Stamboulieh Law, PLLC
P.O. Box 428
Olive Branch, MS 38654
(601) 852-3440
Stephen@sdslaw.us

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 16, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALI.AGHER
Notary Public, State of Otio
My Commission Expires
r t'U,·'V '. ,, ; ·,; 3

